BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for Writ of Certiorari in State
of Ohio v. Daniel Deuble, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day service and e-mail to the following
parties listed below, this 21st day of June, 2021:
Justin Weatherly
1231 Superior Avenue
Suite, 200
Cleveland, Ohio 44114
(216) 774-0000
jw@hmwlawfirm.com
Counsel for Respondent
Michael C. O'Malley
Cuyahoga County Prosecutor
Daniel T. Van
Assistant Prosecuting Attorney
Counsel of Record
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, Ohio 44113
(216) 443-7865
dvan@prosecutor .cuyahogacounty. us
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 21, 2021.

AmyTrip~
Becker Gallagher LegalPublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

C~1.-t.

J/h_.. "1.

Notary Public

d i, iJo o J

ki~ ~

[seal]

JOHN D. GALLAGHER
Notary Publlc, Stale of Ohio
My Commisllion Expires
february 14, 202.'3

